Order

Michigan Supreme Court
Lansing, Michigan

April 29, 2020

Bridget M. McCormack,

160611 & (17)

David F. Viviano,

ChiefJustice

ChiefJustice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

SC: 160611
COA: 349518
Kalamazoo CC: 2010-001165-FC

v
DAVID FRANKLIN McNEES, JR.,
Defendant-Appellant.
'

/

On order of the Court, the application for leave to appeal the October 22, 2019
order of the Court of Appeals is considered, and it is DENIED, because the defendant’s
motion for relief from judgment is prohibited by MCR 6.502(G). The motion to remand
is DENIED.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court
April 29,2020
a0420

Clerk

Justices

Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

July 28, 2020

Chief Justice

David F. Viviano,

160611(26)

ChiefJustice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

SC: 160611
COA: 349518
Kalamazoo CC: 2010-001165-FC

v

Justices

DAVID FRANKLIN McNEES, JR.,
Defendant-Appellant.

On order of the Court, the motion for reconsideration of this Court’s April 29,
2020 order is considered, and it is DENIED, because we are not persuaded that
reconsideration of our previous order is warranted. MCR 7.311(G).

wK
4

| jo]
JsJ

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
July 28, 2020

a0720

Clerk

/

Court of Appeals, State of Michigan
ORDER
People of MI v David Franklin McNees Jr

James Robert Redford
Presiding Judge

Docket No.

349518

David H. Sawyer

LC No.

2010-001165-FC

Jane E. Markey
Judges

The Court orders that the motion to waive fees is GRANTED for this case only.
The Court further orders that the delayed application for leave to appeal and the motion
to remand are DISMISSED. Defendant has failed to demonstrate the entitlement to an application of
any of the exceptions to the general rule that a movant may not appeal the denial of a successive motion
for relief from judgment. MCR 6.502(G).

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on
l)j

OCT 2 2 2019
Date

